Washington, D.C. 20530

April 7, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Carlos Rodriguez Fernandez v. United States of America,
S.Ct. No. 20-7460
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on March 12, 2021. Although
the government waived its right to file a response, the Court has requested that a response be
filed. The government’s response is now due on April 15, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including May 17, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7460
FERNANDEZ, CARLOS RODRIGUEZ
USA

DONNA LEE ELM
1465 W WAGON WHEEL RD
SUITE 2700
COTTONWOOD, AZ 86326
6022997022

